No. 19A-_____
IN THE
SUPREME COURT OF THE UNITED STATES

DERAY MCKESSON,
Applicant,

v.
JOHN DOE,

Respondent.

On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Fifth Circuit
APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI

David T. Goldberg
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON, LLP
109 S. 5th Street, Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com

PARTIES
In addition to the parties on the caption, Black Lives Matter Network, Inc., was
a party to the proceedings before the Court of Appeals but does not join this petition.

i

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI
To: Hon. Samuel A. Alito, Jr., Circuit Justice for the Fifth Circuit:
Under this Court’s Rules 13.5 and 22, Applicant DeRay Mckesson requests an
extension of thirty (30) days to file a petition for a writ of certiorari, seeking the
Court’s review of the decision of the U.S. Court of Appeals for the Fifth Circuit, in
Doe v. Mcksesson, No. 17-30864, 935 F.3d 253 (on rehearing) (Aug. 8, 2019), a copy of
which is attached. See also 922 F.3d 604 (5th Cir. 2019) (prior, withdrawn panel
opinion). In support of this application, Applicant states:
1. A panel of the Fifth Circuit issued its decision on rehearing on August 8,
2019. Without an extension, the petition for writ of certiorari would be due on
November 6, 2019. With the requested extension, the petition would be due on
December 6, 2019. This Court’s jurisdiction will be based on 28 U.S.C. § 1254.
2. This case is a serious candidate for review because the Fifth Circuit decision
resolved a vitally important question of federal constitutional law in a manner that
contravenes NAACP v. Claiborne Hardware, 458 U.S. 886 (1982), and cannot be
squared with other landmark First Amendment precedents of this Court.
a. This is a state law tort suit seeking monetary damages for personal injuries
suffered at a protest march prompted by the killing of Alton Sterling, an AfricanAmerican resident of Baton Rouge, Louisiana, by local police. The plaintiff
(Respondent here), is a law enforcement officer who was struck by a “rock-like object”
while policing the demonstration; the principal defendant, Applicant DeRay

1

Mckesson, is a prominent advocate for racial justice and policing reform, who
participated in the July 9, 2016 demonstration. 1
Respondent has not claimed that Mckesson himself hurled the projectile or
perpetrated violence of any kind. And his complaint, each court below concluded,
made no plausible allegation that Mckesson had incited, directed, or ratified violent
activity by any other person. Rather, Respondent maintained that three Louisiana
tort theories—civil conspiracy, vicarious liability, and negligence—entitled him to
recover from Mckesson for the injuries the unnamed assailant inflicted. In particular,
Doe alleged that Mckesson had encouraged other protesters to march on a public
highway, neglecting the prospect that arrests—and then aggressive resistance—
might ensue.
b.

After concluding that the first two causes of action failed on state law

grounds, see 272 F.Supp.3d 841 (M.D. La. 2017), the district court held the negligence
claim foreclosed by Claiborne Hardware. That case, like this one, involved a state law
claim for damages resulting from violence that occurred “in the context of
constitutionally protected activity,” 458 U.S. at 916—an economic boycott of white-

Respondent invoked the district court’s diversity jurisdiction. 28 U.S.C.
§ 1332. In addition to naming Mckesson, he named “Black Lives Matter,” alleged to
be an unincorporated association. Both courts below rejected that claim. But see Slip
Op. 16 n.7 (directing district court to reconsider, in light of panel’s opinion, its denial
of leave to add parties). The courts also held that Respondent is not entitled to proceed
pseudonymously. Id. at 17 n.8. Because, the court of appeals did not alter its caption
and because Respondent has yet to formally identify himself and potentially could
cross-petition on that issue, this Application refers to him as “Doe.”
1

2

owned businesses in Port Gibson, Mississippi, aimed at securing fairer treatment of
the area’s African-American residents. Id. at 907-12.
The Claiborne opinion affirmed that since “the First Amendment does not
protect violence,” id. at 916, “no federal rule of law restricts a State from imposing
tort liability for … losses that are caused by violence and by threats of violence.” Id.
But, the Court held, “the presence of activity protected by the First Amendment
imposes restraints on the grounds that may give rise to damages liability and on the
persons who may be held accountable for those damages,” id. at 916-17. This Courtt’s
opinion, after extensively canvasing relevant lines of First Amendment authority,
then identified the principal such restraint: States may not hold a nonviolent
defendant liable in civil damages for his associates’ violence absent clear proof he
harbored “specific[] inten[t]” that the violence occur. 458 U.S. at 919 (quoting Scales
v. United States, 367 U.S. 203, 229 (1961)). Because there was no plausible allegation
that Mckesson perpetrated violence or shared the rock-thrower’s violent aims, the
district court concluded, Claiborne’s rule controlled. See 272 F. Supp. 3d at 847-48.
c. A panel of the Fifth Circuit, in both an initial opinion and the substitute,
issued after Mckesson timely sought en banc review, reinstated Respondent’s
negligence claim.
The court first held Doe had plausibly alleged the requisite elements of that
cause of action, including a breach of what the court described as a “universal
obligation” imposed under Louisiana law “to use reasonable care so as to avoid injury
to another.” Slip. Op. 8 (quoting Boykin v. La. Transit Co., 707 So.2d 1225, 1231 (La.

3

1998)). In addressing that element, the court attached special significance to
allegations Mckesson had “led the demonstrators” onto a public thoroughfare,
observing that hindering the flow of traffic is “a criminal act under Louisiana law,”
id. (citing La. Rev. Stat. § 14:97), which made it “patently foreseeable” police would
respond “by clearing the highway and, when necessary, making arrests,” a
development that, in turn, carried a “foreseeable risk” that a protestor would respond
violently. Id. 8.
The opinion then “t[ook] a step back” to consider the Constitution, id. at 9,
holding that the Claiborne bar was inoperative. Claiborne, the panel reasoned, did
not rule out imposing civil damages for “the consequences of tortious activity,” id. at
10 (quoting 458 U.S. at 927), and, the court continued, Doe’s injuries were readily
described as “consequences” of Mckesson’s “own” negligent and “illegal conduct.” In
view of the criminal statute, the court concluded, the civil liability regime it
announced could be understood as the sort of “reasonable time, place, and manner
regulation” the First Amendment allows governments to enforce. Slip. Op. 12 (citing
Clark v. Community for Creative Non-Violence, 468 U.S. 288, 293 (1984)).
3. As Applicant’s petition for certiorari will explain, the Fifth Circuit’s
understandings of the First Amendment and of the Claiborne rule are at odds with
bedrock principles established in some of this Court’s most important Free Speech
decisions, which prohibit liability for third-party violence that was a foreseeable, but
not intended, “consequence” of nonviolent First Amendment activity. See, e.g.,
Terminiello v. City of Chicago, 337 U.S. 1 (1949) (overturning conviction of speaker

4

whose address caused “surging, howling mob” to break 28 windows); Brandenburg v.
Ohio, 395 U.S. 444 (1969) (holding that the First Amendment restricts punishment
for incitement to defendants who personally intend criminal activity); Nwanguma v.
Trump, 903 F.3d 604 (6th Cir. 2018) (en banc) (applying that rule in rejecting tort
liability for speech that led to crowd violence); cf. Ashcroft v. Free Speech Coalition,
535 U.S. 234, 251 (2002) (rejecting punishment for possessing “virtual child
pornography,” notwithstanding congressional finding that such materials enable
pedophiles to overcome child victims’ resistance).
Likewise, the Fifth Circuit’s primary rationale for casting aside the Claiborne
rule—that First Amendment activity becomes “[un]protected” if it allegedly violates
any law—has been rejected time and again. See, e.g., Marsh v. Alabama., 326 U.S.
501, 509 (U.S. 1946) (overturning religious speaker’s conviction for violating state
trespassing law); United States v. Stevens, 559 U.S. 460 (2010) (holding
unconstitutional statute that punished only depictions of independently “illegal”
behavior); cf. Bartnicki v. Vopper, 532 U.S. 514, 528 (2001) (invalidating civil
damages remedy for publishing unlawfully obtained information). Indeed, the Fifth
Circuit’s revision would likely not even spare the petitioner in Claiborne itself. And
even if a civil damages regime could be analogized to a “time, place, and manner
regulation,” such laws are not exempt from First Amendment scrutiny. See McCullen
v. Coakley, 573 U.S. 464, 490 (2014) (invalidating measure, as “burdening
substantially more speech than necessary”).

5

As the petition will also explain, there are compelling reasons—beyond the
interests in decisional uniformity, doctrinal coherence, and compliance with
precedent—why this Court’s intervention is needed. The highly unusual tort law
regime the Fifth Circuit’s opinion blessed poses a serious practical threat to the
exercise core First Amendment freedoms. Unlike the Claiborne rule, which sets clear
bounds on demonstrators’ liability for others’ violent behavior, the “negligentprotesting” cause of action approved here: (1) exposes non-violent protesters to
limitless, potentially vast monetary liability (2) for criminal acts, committed in public
streets by unrelated third parties, and (3) does so based on post-hoc—and ad-hoc—
balancing of “various moral, social, and economic factors,” Slip Op. 8 (quoting Posecai
v. Wal-Mart Stores, Inc., 752 So. 2d 762, 766 (La. 1999)), and (4) other determinations
that cannot reasonably be expected to be made independently of jurors’ attitudes
toward the message a protestor-defendant sought to express, see Snyder v. Phelps,
562 U.S. 443, 458 (2011).
The speakers whom the Fifth Circuit regime will most severely deter are those
with the fewest resources and who seek engage fellow citizens on controversial
subjects. Without the Claiborne shield, the risk and magnitude of damages liability
will depend principally on the virulence of others who show up at a demonstration on
a public street—including not just persons who subscribe to the protest’s message,
but also bitter opponents, police, and provocateurs (and various combination of these).
As the Claiborne Court well understood, when Martin Luther King, Jr. and teenagers

6

took
to the streets of Birmingham (illegally), it was “foreseeable” that someone present
would engage in violence.
The private damages cause of action the Fifth Circuit decision unleashed is,
from a First Amendment perspective, worlds away from a prosecution for the
misdemeanor offense of hindering traffic on a public highway. Unlike public
prosecutors, whose decisionmaking is constrained by the First Amendment’s
neutrality command, Wayte v. United States, 470 U.S. 598, 608 (1985)—and further
checked by stringent proof standards, jury trial rights, and government-provided
defense counsel—private plaintiffs have free rein to initiate civil litigation for the
purpose of hobbling the speech activities of persons whose views they want to silence.
See NLRB v. Bill Johnson’s Restaurants, 461. US. 731 (1983).
4. The requested 30-day extension would enable undersigned counsel to better
present this complex and important case to the Court. The undersigned has
substantial responsibility, between now and the present due date, for briefing several
other matters in this Court and in the D.C. Circuit (on an accelerated schedule) and
for a series of court-mandated mediation sessions before a federal district court.
5. For the foregoing reasons, Applicant DeRay Mckesson requests that the due
date for his petition for a writ of certiorari be extended to and including December 6,
2019.

7

Respectfully submitted,
By:

_________/s/______________
David T. Goldberg
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON, LLP
109 S. 5th Street, Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com
Dated:

October 24, 2019

8

